K|B|S

KARCZEWSKI | BRADSHAW | SPALDING
NICHOLS | LAMP | LANGLOIS

ATTORNEYS • COUNSELORS

Cory Rush

3700 Buffalo Speedway, Suite 560
Houston, TX 77098
713-993-7066

crush@kbslawgroup.com

March 4, 2020
Via Electronic Filing
Honorable Scott S. Harris
Office of the Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Application to Extend Time to Respond to Petition for Writ of Certiorari in
Christopher Edward McMillen v. New Caney Independent School District, Case
No. 19-972

Dear Mr. Harris:
I represent Respondent New Caney Independent School District (NCISD) in the abovecaptioned matter. Pursuant to Rule 30.4, I am respectfully requesting a 31-day extension of time
in which to respond to Petitioner Christopher Edward McMillen’s petition for writ of certiorari.
The petition was docketed in this matter on January 25, 2019, after Petitioner was granted
a 30-day extension. I timely filed a waiver on February 7, 2020; however, the Court requested a
response to the petition on February 19, 2020, and NCISD’s deadline to file its response was set
for Friday March 20, 2020. In light of the explanation below, I am seeking an extension of the
deadline to file NCISD’s response to and including Monday, April 20, 2020 (30 days from March
20, 2020 would fall on Sunday, April 19, 2020).
From the outset, I seek this extension due to my heavy caseload and pressing deadlines in
matters presently before the United States District Court for the Southern District of Texas and
Texas state courts, including:
a. Daniel Arturo Garcia-Ascaio v. Spring Independent School District, C.A. No.

HOUSTON

•

NACOGDOCHES

•

BEAUMONT •

AUSTIN

4:19-cv-1847, pending in the United States District Court for the Southern
District of Texas, Houston Division (depositions scheduled throughout March
2020 in Houston, Texas and Nashville, Tennessee);
b. Sid Arismendez v. Coastal Bend College, et al., C.A. No. 2:19-cv-00312,
pending in the United States District Court for the Southern District of Texas,
Corpus Christi Division (preparation of briefing on the affirmative defense of
qualified immunity on behalf of the sole-remaining individual defendant);
c. Angela Hall v. Aldine Independent School District, C.A. No. 4:19-cv-04603,
pending in the United States District Court for the Southern District of Texas,
Houston Division (settlement conference before a Magistrate Judge scheduled
for March 19, 2020);
d. Celeste Glover v. Aldine Independent School District, C.A. No. 4:19-cv-0448,
pending in the United States District Court for the Southern District of Texas,
Houston Division (oral argument on Defendant’s pending Motion to Dismiss
scheduled on March 18, 2020); and
e. Rodney Anderson v. Austin Independent School District, No. D-1-GN-19004070, pending in the 53rd Judicial District Court of Travis County, Texas
(extensive document production and frequent travel from Houston, Texas to
Austin, Texas for deposition preparations).
An extension of the response deadline will allow me to thoroughly research and prepare a response
on behalf of NCISD while managing the pending deadlines in the above-described cases.
Additionally, I am currently in the process of potentially engaging additional counsel to
assist in the preparation of NCISD’s Response to Petitioner’s Petition for Writ of Certiorari. The
requested extension will, therefore, also allow the engagement process to finalize and provide any
additional counsel time to become more familiar with the case and properly assist in the
representation of NCISD.
Thank you in advance for your consideration in this matter.
Very truly yours,

Cory Rush

cc: Counsel for Petitioner (via email and UPS)

HOUSTON

•

NACOGDOCHES

•

BEAUMONT •

AUSTIN

